Case No: 20-5565
IN THE
SUPREME COURT OF THE UNITED STATES

MARY JO WEIDRICK, Petitioner/Plaintiff
v.
PRESIDENT DONALD J TRUMP et al, Respondents/
Defendants

CERTIFICATION FOR PETITION FOR REHEARING
Petitioner hereby certifies that this Rehearing request is limited to the
grounds specified in SCOTUS Rule 44(2). It is presented in good faith and not for
delay.

Okkti

lkOLLs>

Mary Jo *eidrick, Petitioner/Plaintiff

PETITION FOR REHEARING
Petitioner respectfully requests a Rehearing for the following reasons:
As this Court knows, this case is not a "national security",
"investigation" or "terrorism" case against Petitioner as Petitioner has never
engaged in pro-terrorism activities, conversations or curiosities. Defendants,
named and unnamed, have forged all pro-terrorism materials and recruited
named and unnamed Defendants to falsely corroborate such material or
activity.
REASON 1: Since Petitioner filed her Petition and this court has
denied it, Petitioner believes unnamed Defendants Mark E. Zuckerburg ,
CEO of Facebook, and Jack P. Dorsey, CEO of Twitter, have confessed to
forging pro-terrorism materials.
REASON 2: Many people including named and unnamed
Defendants have "widespread" knowledge all pro-terrorism materials are
forged. Manhattan D.A. Cyrus R. Vance, Jr. has been investigating this case
and most likely has those statements and other evidence of this criminal
activity and terrorism and will secure more once he speaks to Petitioner.
While Petitioner believes it is not possible to prove that named and
unnamed Defendants have forged all the pro-terrorism materials they have
attributed to Petitioner; they have the full assets of the United States
government, both in and out of this country, to hide their activities and "fool
us" when we subpoena them, and obstruct justice in other ways.
4

Likewise, Petitioner will not be able most likely to prove at this time
she did not manufacture or engage in any pro-terrorism activity or
curiosities, first because she doesn't know what they've forged or how they've
done it. However, once Petitioner is allowed to confer with her attorney and
the Manhattan D.A., they will prove going forward no pro-terrorism activities
are conducted by Petitioner.
REASON 3: As this Court knows, part of the case is Petitioner is
denied her First, Fourth, Fifth, Ninth Amendment rights as outlined in her
Petition for Certiorari including being denied access to her attorney, Mark J.
Geragos, and the Manhattan D.A., Cyrus R. Vance, Jr. If this Court were
to give deference to named and unnamed Defendants and their falsified proterrorism materials, Petitioner would still have rights to confer with her
attorney. In Hamdi v. Rumsfeld, 542 U.S.507 (2004), this Court concluded
Mr. Hamdi, declared an "enemy combatant" by the U.S. government,
maintained his Fifth Amendment due process rights to contest his detention,
with access to an attorney, before a neutral decisionmaker
This Court further rejected the government's argument that
separation-of-powers prevents the judiciary from hearing Mr. Hamdi's
challenge.
REASON 4: Petitioner is unsure how Defendants are classifying her,
unsure of any of the falsified evidence, thus Petitioner is unsure of what cases

5

to cite, if there are any. Petitioner's case may be unprecedented. Petitioner
does not have access to Westlaw or any attorney at this time
but her research on google shows of the "national security" type cases on
U. S. soil, Ex parte Milligan, 71 U.S. (4 Wall.) 2 (1866) may apply wherein
this Court ruled a U. S. citizen should be tried in a civilian court if open and
available rather than a military tribunal.
In Runtsfeld v. Padilla. 542 U.S. 426 (2004), U. S. citizen Jose Padilla
was arrested in the U.S., eventually declared an "enemy combatant" and was
denied access to an attorney. District Court Judge Mukasey rejected the
government's denial Mr. Padilla's access to an attorney because of
government fears counsel would interfere with Padilla's interrogation and
that Padilla might use contacts with counsel to communicate with other
terrorists.

The appeals court reversed the district court's "enemy combatant"
ruling finding the Authorization for Use of Military Force (AUMF) did not
meet the requirement of the Non-Detention Act and that the President could
not, therefore, declare American citizens captured outside a combat zone as
enemy combatants hence ordered Padilla released without resolving the issue
of access to his attorney; thus this Court did not see the case
REASON 5: Time is of the essence: POTUS-elect Joe Biden is
an original terrorist from 31 years ago ---now joined by his wife---who not only
6

continue to violently rape, assault Petitioner's brain, sexually assault, slander
victim Petitioner, he has threatened (to the media) to kill Petitioner; which is the
stated mission of these terrorists and supported by their violent actions
including denial of access to her attorney or any attorney and denial of access to
any court. He cannot legally or constitutionally become POTUS

once he and

the balance of terrorists are no longer allowed to obstruct justice he will most
likely be indicted for this terrorism.
Vice President-elect and U.S. Senator Kamala Harris is a violent
participating terrorist as well and will most likely be indicted, stand trial and
most likely imprisoned as well as she cannot legally become a Vice President of
the United States or continue her role as a U.S. Senator.
Because the terrorists have infiltrated and taken over both the
Presidency and both Houses of Congress for 31 years, it will be challenging to
find the next person in the Presidential/Vice Presidential line of succession but
must be addressed before these violent, dangerous persons try to illegally and
unconstitutionally fulfil these roles or continue in Congress as they have been
successful in doing for over 31 years....and of course keep this terrorism alive or
continue to obstruct justice.

REASON 6: This Court rejected Petitioner's request in 2018-19 to
hear this case ex parte; it seems fair and proper Defendants should not be able

7

to continue in the courts without Petitioner and her attorney; the Manhattan
D.A. if needed.
REASON 7:

Named and unnamed Defendants, 100's to 1,000's of

them, are inside Petitioner's body via assaulting her brain and sexually
assaulting her; people she would not allow in her home are allowed inside her
brain and hence body which is a basic violation of human dignity. Their goals
are intentionally to degrade and violate her....and the unnamed Defendants in
the form of TV media and their guests have enjoyed it as have many U.S.
Senators et al and seemingly enjoyed watching her scream in terror and
torture for over 31 years.
Seemingly whatever Petitioner's eyes see, named and unnamed
Defendants see; Petitioner's "sights", like in all other humans, are processed
IN Petitioner's brain Even activity as personal as sex is processed in the
brain.
REASON 8:

The Doctrine of Common Sense. Common sense as

defined by Black's Law Dictionary states: "Sound practical judgment; that
degree of intelligence and reason, as exercised upon the relations of persons
and things and the ordinary affairs of life, which is possessed by the
generality of mankind, and which would suffice to direct the conduct and
actions of the individual in a manner to agree with the behavior of ordinary
person."

S

Petitioner believes "the ordinary person" would be appalled and
outraged that the United States government, named and unnamed
Defendants, have raped, assaulted, sexually assaulted Petitioner's
brain, hence body; have watched her shower, go to the bathroom,
engage in feminine hygiene, if she were to have sex, change
clothes....or just in general to have her moment-to-moment private
thoughts violated AT ALL much less 24/7 for over 31 years. It
destroys one's brain; one's life and it is violent 24/7; there is no place,
no town, no state seemingly where Petitioner can run to escape this
24/7 violence.
If named and unnamed Defendants had wanted a legitimate
investigation of Petitioner, assuming mind-reading equipment was at
some point legal to use on an American citizen, Petitioner would not
have known it. Defendants wanted Petitioner to know they were
violently assaulting, raping her brain and hence body commencing
10/31/89 in many ways including by using loud, stalking local citizens
via the local participating TV and radio media regurgitating her
thoughts, slandering her and her thoughts and making fun of both;
threatening to kill her; using police sirens to reinforce Petitioner's
thoughts of their death threats and to violently disrupt her brain
(which they still do to this day causing Petitioner to yell out in horror
or terror). Common sense possessed by "the ordinary man" and

9

Petitioner maintains IF she had been engaging in any pro-terrorism
or criminal activities or conversations, Petitioner would have stopped
immediately on 10/31/89 to avoid giving away methods and sources
and being arrested.

17.)

REASON 9: There may not be a more important case in front of this

Court ever: using mind-reading equipment on a U.S. citizen in the manner they
have is deliberate violent, violent assault of one's brain and sexual assault and
terrorism. The brain is located inside the head as well as other organs such as
colon and vagina; movement, action and control of one's body, one's private
thoughts, feelings, emotions emanate from the brain. The body's sensations also
trigger activity in the brain whether it's pain in a joint or something more
intimate like having sex.
18.)

There is no more sacred space in the universe than inside the human

brain. The brain is who each of us are as individuals and without it, we are not
functioning individuals. For the U. S. government to decide to penetrate one's
hallowed space that makes us "human" much less "individuals" is not only
violent, but counter to our basic existence as a people; as a young democracy.
Every American deserves to be safe from all others including the United
States government in their own homes....and more so to be safe from all
others including the United States government inside their own bodies.

10

PRAYERS:
Petitioner believes this case has been in front of this Court by
former U. S. Senator Kelly Ayotte, possibly Senator Rob Portman, her attorney,
Mark J. Geragos, now Manhattan D.A. Cyrus Vance in some form or another for
maybe 5-6 years? Clearly named and unnamed Defendants are still engaging in
the criminal activity 24/7 and obstructing justice. Petitioner has filed possibly 56 actions in this Court since 2018; some have been sent back for correction but
all have been rejected for unknown reasons.
Petitioner hopes and prays she correctly addressed this Court's
concerns as to her last Petition for Certiorari, thus respectfully requests her
opportunity, after 31 years of 24/7 violent terrorism, to be heard so that she and
her attorney, Mark J. Geragos, can confer and she may speak to Manhattan
D.A. Cyrus R. Vance, Jr. for purposes of stopping this terrorism immediately
and securing indictments against named and unnamed Defendants
As Petitioner does not know how the SCOTUS calendar works
but due to the violence of having one's brain assaulted, raped, being sexually
assaulted happening each second of each day by 100's to 1000's of violent
named and unnamed Defendants, Petitioner respectfully requests this case be
heard in this Court in ten (10) days of receipt of this Petition for Rehearing.

11

Respectfully submitted,

Mary Jo eidrick, Petitioner
1300 Rhodes Avenue
Sarasota, FL 34239
941-316-0273

November 13, 2020

UA-te.E.Cz,e)

0-t-bae4

snI4Ampun 319nd ARAN Mu Poisce

..
. 0 ......
ZZOZ kenuer :SUldra 2(
ZESE14 # NOISSIM03 AW
tiEDIWEI S31BVHO

12

Case No. 20-5565

IN THE SUPREME COURT OF THE UNITED STATES

MARY JO WEIDRICK, Petitioner/Plaintiff
v.
PRESIDENT DONALD J. TRUMP, UNITED STATES
ATTORNEY GENERAL WILLIAM P. BARR; UNITED STATES CONGRESS
et al, Respondents/Defendants

I, Mary Jo Weidrick, hereby certify that on November 13, 2020, I mailed the
Petition for Rehearing to the Clerk for the Supreme Court of the United States, 1
First Street, NE, Washington DC 20543. The following Respondents/Defendants
were also mailed a copy of same:

Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, NW, Room 5616
Washington, DC 20530-0001

Mary Jo eidrick, Petitioner

